HHS/OIG, Audit -"Review of Adoption Assistance Costs Claimed by Vermont for the Three Fiscal Years Ended June 30, 2003,"(A-01-04-02500)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Adoption Assistance Costs Claimed by Vermont for the Three Fiscal Years Ended June 30, 2003," (A-01-04-02500)
December 23, 2003
Complete Text of Report is available in PDF format (1.70 mb). Copies can also be obtained by contacting
the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether adoption assistance
costs claimed for Federal reimbursement were adequately supported and reported in accordance with Federal requirements.  For
the three Fiscal Years ended June 30, 2003, the State claimed $143,162 ($89,797 Federal share) in adoption assistance
costs that were the result of unsupported variances, clerical errors, and incorrectly allocated costs.  The State
concurred with our findings and recommendations and has agreed to implement additional procedures to ensure accurate
reporting of costs claimed for Federal reimbursement.